APPENDIX
A

Bailey v. State, 311 So.3d 303 (2020)
45 Fla. L. Weekly D2559, 46 Fla. L. Weekly D312

A trial court's ruling on a motion to suppress
evidence comes to the Court of Appeal with a
presumption of correctness.

311 So.3d 303
District Court of Appeal of Florida, First District.
Brandon Joshua BAILEY, Appellant,
v.
STATE of Florida, Appellee.
No. 1D18-4514
|
November 16, 2020
|
Rehearing Denied February 8, 2021
Synopsis
Background: After denial of defendant's motion to suppress
GPS records tracking his travel in borrowed car, which
were transmitted to car owner's financing company, and
obtained without warrant by law enforcement, defendant was
convicted in the Circuit Court, 4th Judicial Circuit, Duval
County, Charles W. Arnold, Senior Judge, of first-degree
murder, armed robbery, and possession of a firearm by a
convicted felon. Defendant appealed.

[2]

[3]

Courts
Construction of federal
Constitution, statutes, and treaties
State courts decide search and seizure issues
in conformity with the Fourth Amendment
decisions of the Supreme Court of the United
States. U.S. Const. Amend. 4.

[4]

Criminal Law
general

Searches and seizures in

In assessing a suppression motion, a court begins
with two threshold questions: has there been a
search and, if so, was it reasonable. U.S. Const.
Amend. 4.

[5]

Searches and Seizures
Fourth
Amendment and reasonableness in general
There must be a “search” or a “seizure” to trigger
the Fourth Amendment's protections. U.S. Const.
Amend. 4.

[2] defendant did not demonstrate a subjective expectation of
privacy in GPS records; but
[3] reversal and remand was required for trial court to
determine defendant's competency to proceed.

Illegally obtained evidence

An appeal of a trial court's ruling on a motion
to suppress evidence generally presents a mixed
question of law and fact.

Holdings: The District Court of Appeal, M. Kemmerly
Thomas, J., held that:
[1] defendant had no objectively reasonable expectation of
privacy in GPS records; and

Criminal Law

[6]

Searches and Seizures
Fourth
Amendment and reasonableness in general
The Fourth Amendment does not proscribe all
state-initiated searches and seizures; it merely
proscribes those which are unreasonable. U.S.
Const. Amend. 4.

Affirmed in part, reversed in part, and remanded.
Osterhaus, J., filed specially concurring opinion.
Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion.
[7]
West Headnotes (27)
[1]

Criminal Law

Reception of evidence

Searches and Seizures
Necessity of and
preference for warrant, and exceptions in
general
Generally, searches conducted outside the
judicial process, without prior approval by

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Bailey v. State, 311 So.3d 303 (2020)
45 Fla. L. Weekly D2559, 46 Fla. L. Weekly D312

judge or magistrate, are per se unreasonable
under the Fourth Amendment—subject only to a
few specifically established and well-delineated
exceptions. U.S. Const. Amend. 4.

[8]

Searches and Seizures
Search or Seizure

purpose, the government will generally not be
required to obtain a warrant before obtaining the
information. U.S. Const. Amend. 4.

[12]
What Constitutes

Searches and Seizures
Search or Seizure

What Constitutes

Searches and Seizures
privacy

Expectation of

In order to claim protection from unreasonable
search under the privacy-based approach to
the Fourth Amendment, a defendant's conduct
must exhibit an actual, subjective expectation
of privacy and that subjective expectation must
be one which society recognizes as objectively
reasonable; where these two requirements are
met, official intrusion into that private sphere
generally qualifies as a search and requires
a warrant supported by probable cause. U.S.
Const. Amend. 4.

[10]

Searches and Seizures
privacy

[11]

Searches and Seizures
privacy

[13]

Expectation of

If an individual has conveyed information
to a third party or to the public at large,
even if the information is revealed on the
assumption that it will be used only for a limited

Searches and Seizures
privacy

Expectation of

The nature of particular documents sought must
be considered in determining whether there is
a legitimate expectation of privacy concerning
their contents, such that law enforcement's
acquisition of them is a “search” to which the
protections of the Fourth Amendment apply. U.S.
Const. Amend. 4.

[14]

Criminal Law

Persons entitled to object

Courts must examine every suppression of
evidence claim based on a defendant's privacy
interest on a case-by-case basis to determine
whether a “search” occurred such that the
protections of the Fourth Amendment apply. U.S.
Const. Amend. 4.

Expectation of

Generally, information that a person knowingly
exposes to the public is not subject of Fourth
Amendment protection. U.S. Const. Amend. 4.

Expectation of

The mere fact that an individual has on some
level allowed information to be conveyed to a
third party is not an end-all point of consideration
preventing such individual from showing a
subjective expectation of privacy in regards to
a putative privacy interest, as required to bring
such information within the protections of the
Fourth Amendment. U.S. Const. Amend. 4.

Fourth Amendment searches now fall into two
general hemispheres: trespassory searches in
which the government physically intrudes onto
the person or property of an individual, and
intrusion into an area in which a person possesses
a reasonable expectation of privacy. U.S. Const.
Amend. 4.

[9]

Searches and Seizures
privacy

[15]

Searches and Seizures
privacy

Expectation of

The question of whether a privacy interest is
one which society is prepared to recognize, as
required for it to come within the protections
of the Fourth Amendment, is informed by
historical understandings of what was deemed an
unreasonable search and seizure when the Fourth
Amendment was adopted. U.S. Const. Amend. 4.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Bailey v. State, 311 So.3d 303 (2020)
45 Fla. L. Weekly D2559, 46 Fla. L. Weekly D312

[16]

Telecommunications
Transponders or
"beepers" in general; warrantless proceedings

Searches and Seizures
Fourth
Amendment and reasonableness in general

Because cars do not bear the same attachment as
cellphones to their owners and cannot penetrate
private spaces to the same degree, government
acquisition of a vehicle's GPS data does not
give rise to the same risk of all-encompassing
surveillance as cell site location information,
in the context of Fourth Amendment protection
against unreasonable searches. U.S. Const.
Amend. 4.

In the context of historical understandings
of what was deemed an unreasonable search
and seizure when the Fourth Amendment was
adopted, the Fourth Amendment's primary goal
is the prevention of activity which would lead to
arbitrary and too-permeating police surveillance
and power. U.S. Const. Amend. 4.

[17]

Searches and Seizures
Search or Seizure

What Constitutes

The “mosaic theory” applies a cumulative
understanding of data collection by police and
analyzes searches as a collective sequence of
steps rather than individual ones; it considers
police action to be viewed over time as a
collective “mosaic” of surveillance and allows
the whole picture to qualify as a protected
Fourth Amendment search, even if the individual
steps that contribute to the full picture do not,
in isolation, reach that constitutional threshold.
U.S. Const. Amend. 4.

[18]

Searches and Seizures
privacy

The harm inherent in a government's warrantless
gathering of cell site location information is
primarily borne of the virtual attachment of
the cellular device to its owner—allowing
for all-encompassing, perpetual tracking which
penetrates private spheres—and of the fact that
the overwhelming majority of individuals more
or less must own a cell phone. U.S. Const.
Amend. 4.

Searches and Seizures
privacy

Searches and Seizures
privacy

Expectation of

Telecommunications
Carrier's
cooperation; pen registers and tracing
Telecommunications
Transponders or
"beepers" in general; warrantless proceedings
As an owner's vehicle is frequently in operation
and driven by others, GPS tracking of
cars does not provide police the level of
personal surveillance contemplated with cell site
location information, in the context of Fourth
Amendment protection against unreasonable
searches. U.S. Const. Amend. 4.

Expectation of

Telecommunications
Carrier's
cooperation; pen registers and tracing

[19]

[]

Expectation of

Telecommunications
Carrier's
cooperation; pen registers and tracing

[21]

Searches and Seizures
privacy

Expectation of

Telecommunications
Carrier's
cooperation; pen registers and tracing
Because cell phones are treated as almost a
feature of human anatomy, tracking of a cell
phone is tracking of the owner, in the context
of the Fourth Amendment protection against
unreasonable searches. U.S. Const. Amend. 4.

[22]

Searches and Seizures
privacy

Expectation of

Searches and Seizures

Private persons

Telecommunications
Transponders or
"beepers" in general; warrantless proceedings
Murder defendant had no objectively reasonable
expectation of privacy in GPS records
transmitted from his borrowed car to car owner's

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Bailey v. State, 311 So.3d 303 (2020)
45 Fla. L. Weekly D2559, 46 Fla. L. Weekly D312

financing company such that law enforcement's
warrantless acquisition of such records would
constitute a “search” implicating the protections
of the Fourth Amendment, even though GPS data
was technically historical in nature; GPS records
of the car's location during the commission of
the offense were records of defendant's travels
over public thoroughfares, car's owner consented
to GPS tracking, and police played no role
in recording the GPS information. U.S. Const.
Amend. 4.

[23]

If a United States Supreme Court precedent has
direct application in a case, yet appears to rest on
reasons rejected in some other line of decisions,
the lower court should follow the case which
directly controls, leaving to the Supreme Court
the prerogative of overruling its own decisions.

[26]

Criminal Law

Private persons

Telecommunications
Transponders or
"beepers" in general; warrantless proceedings
Murder defendant did not demonstrate a
subjective expectation of privacy in GPS records
transmitted from his borrowed car to car owner's
financing company such that law enforcement's
warrantless acquisition of such records would
constitute a “search” implicating the protections
of the Fourth Amendment, even though GPS
information was transferred to a third-party; car
was not owned by defendant and was allegedly
taken without permission, defendant used car to
traverse public streets, car's owner had consented
to tracking, and transmission of GPS information
to financing company did not reflect a lack of
voluntariness, as nothing forced defendant to
borrow car, and other means of untracked travel
were available to defendant. U.S. Const. Amend.
4.

[24]

Courts
Decisions of United States Courts
as Authority in State Courts
The United States Supreme Court's decisions
remain binding precedent until it sees fit
to reconsider them, regardless of whether
subsequent cases have raised doubts about their
continuing vitality.

[25]

Courts
Decisions of United States Courts
as Authority in State Courts

Mental capacity

Reversal and remand was required for trial court
to determine defendant's competency to proceed
in prosecution for first-degree murder, armed
robbery, and possession of a firearm; trial court
ordered a competency evaluation on counsel's
suggestion of incompetence, and record gave no
indication as to whether expert's report was filed,
any hearing was conducted, or defendant was
found competent.

Searches and Seizures
Abandoned,
surrendered, or disclaimed items
Searches and Seizures

Criminal Law
Mental examination;
determination of competency

[27]

Criminal Law

Mental capacity

Criminal Law
in lower court

Mandate and proceedings

On remand, trial court would be required either
to make a retroactive determination of murder
defendant's competency or to properly adjudicate
defendant's present competency and, on a finding
of competence, conduct a new trial.

*307 On appeal from the Circuit Court for Duval County.
Charles W. Arnold, Judge.
Attorneys and Law Firms
Andy Thomas, Public Defender, and M. J. Lord, Assistant
Public Defender, Tallahassee, for Appellant.
Ashley Moody, Attorney General, and Benjamin L. Hoffman,
Assistant Attorney General, Tallahassee, for Appellee.
Opinion
M.K. Thomas, J.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Bailey v. State, 311 So.3d 303 (2020)
45 Fla. L. Weekly D2559, 46 Fla. L. Weekly D312

Brandon Bailey (Appellant) appeals his judgment and
sentence for first-degree murder, armed robbery, and
possession of a firearm by a convicted felon. He raises
three arguments for reversal. His second argument—that the
affidavit used by police to obtain the search warrant for
his cell phone records failed to establish probable cause
—is rejected, and we affirm without further comment.
Appellant's remaining arguments are that the trial court
erred: 1) in denying his motion to suppress warrantlesslyobtained Global-Positioning-System (GPS) records tracking
his movements in a borrowed car; and 2) by failing to conduct
a formal competency hearing before proceeding to trial in
light of a previous order for a competency evaluation. For the
foregoing reasons, we affirm in part and reverse in part.

I.
In the early morning of February 17, 2016, Dustin Howell,
the victim, was found shot to death in a park. His body had
been stripped of valuables. Mr. Howell resided at an area hotel
equipped with video cameras. Police were able to observe him
on surveillance footage leaving the hotel with Appellant just
after midnight. The footage also revealed Appellant returning
to the hotel alone a few hours later.
Police learned that Appellant had been staying at the hotel
with his girlfriend, the sole owner of a Honda Accord.
The Honda was equipped with a GPS tracker by agreement
between the girlfriend and her financing company. 1 At trial,
she testified that she periodically gave Appellant permission
to use her car. However, she acknowledged that on the night of
the murder, she called police to report her car stolen because
she did not know that Appellant had left with her car. She also
testified that when her car was not returned the next day, she
contacted her financing company to track the car's location.
Police contacted the automobile financing company and
requested limited GPS records of the Honda's movements
from the time of the murder through the following day.
The records were provided without a warrant. The GPS
recorded the Honda's location in timed increments. The
records indicated that the Honda was stopped at a home in the
vicinity of the park at 1:32 a.m. and remained there for a short
time. The Honda then travelled from the home and stopped
at the park (where the victim was later found) between 1:49
a.m. and 1:57 a.m. before returning to the home at 2:02 a.m.

*308 When police arrived at the home, the homeowner
provided consent to view the home's surveillance cameras.
The surveillance footage documented that the Honda had
been driven to the home, consistent with the GPS data, and
further documented that the codefendant and Appellant were
present at the home. Warrants were obtained for a search of
the home and for acquisition of the cell phone records of
Appellant and the codefendant. Clothes matching those worn
by Appellant on the night of the murder were found in the
home, and the cell site location information (CSLI) from the
cell phones matched the timeline of the GPS records.
After his indictment, Appellant moved to suppress the GPS
records and all the fruits thereof, arguing that, pursuant to
Carpenter v. United States, ––– U.S. ––––, 138 S. Ct. 2206,
201 L.Ed.2d 507 (2018), he had a reasonable expectation of
privacy in his movements across the public roads. Thus, when
the police obtained the records showing his recent movements
in the Honda without a warrant, an illegal search occurred.
The trial court disagreed and denied the motion to suppress,
reasoning as follows:

This was a third party GPS device
that was not owned by the defendant;
the defendant had no expectation of
privacy on a device that was not his,
nor the owner of the car, as it belonged
to a finance company that put it on the
car for the purpose of taking care of
where it was in case they had to go
repossess it. And the sheriff's office in
this case was not required to obtain
either a search warrant or a subpoena
to go get the third party information
based on the facts of this case. And
the Court finds that
Carpenter just
simply does not apply to this case.

Prior to trial, Appellant's attorney requested a competency
evaluation which was granted by the trial court. However, the
record falls silent regarding any further action taken on the
matter.

II.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Bailey v. State, 311 So.3d 303 (2020)
45 Fla. L. Weekly D2559, 46 Fla. L. Weekly D312

776, 780–81 (9th Cir. 2003) (quoting
Florida v. Jimeno,
500 U.S. 248, 250, 111 S.Ct. 1801, 114 L.Ed.2d 297
(1991)). Generally, “searches conducted outside the judicial
process, without prior approval by judge or magistrate, are
[1] [2] [3] A trial court's ruling on a motion to suppress per se unreasonable under the Fourth Amendment—subject
comes to this Court with a presumption of correctness. See
only to a few specifically established and well-delineated
State v. Markus, 211 So. 3d 894, 902 (Fla. 2017). An appeal of
exceptions.”
Katz v. United States, 389 U.S. 347, 357, 88
a trial court's ruling on a motion to suppress generally presents
S.Ct. 507, 19 L.Ed.2d 576 (1967).
a mixed question of law and fact. See
Pagan v. State, 830
Whether the Warrantless Acquisition of the
GPS Data Constitutes an Illegal Search

So. 2d 792, 806 (Fla. 2002);
Connor v. State, 803 So. 2d
598, 608 (Fla. 2001); Duke v. State, 255 So. 3d 478, 480
(Fla. 1st DCA 2018). Florida courts decide search and seizure
issues in conformity with the Fourth Amendment decisions
of the Supreme Court of the United States. Art. I, § 12, Fla.
Const.; Cox v. State, 975 So. 2d 1163, 1166 (Fla. 1st DCA
2008).

Upon its drafting and ratification, the Fourth Amendment
was intended to prevent threats to individual liberty that
were prevalent at the founding: intrusions by the government
into private property. Such intrusions, in the late-eighteenth
century, included general warrants and writs of assistance.

Appellant argues the trial court erred in denying his motion
to suppress because it improperly concluded that no search
occurred when the police obtained the vehicle's GPS data

immediate connection to property.

—a legal issue reviewed de novo. 2 See
Pagan, 830 So.
2d at 806. He *309 claims the police action constituted a
“search” because he had a reasonable expectation of privacy
in his movements while operating the vehicle owned by his
girlfriend.

3

[4] In assessing a suppression motion, the court begins with
two threshold questions: 1) has there been a search; and 2) if
so, was it reasonable? United States v. Correa, 908 F.3d 208,

Carpenter, 138 S. Ct. at 2264 (Gorsuch, J., dissenting).
Thus, historical analysis centered on the Fourth Amendment's
Id. at 2239 (Thomas, J.,

dissenting) (citing
United States v. Jones, 565 U.S. 400,
405, 132 S.Ct. 945, 181 L.Ed.2d 911 (2012)). However, in
1967, the Supreme Court redefined what constitutes “search”
and “seizure” and expanded the protections of the Fourth
Amendment to include “what [a person] seeks to preserve as
private, even in an area accessible to the public.”
Katz,
389 U.S. at 351, 88 S.Ct. 507. Justice Harlan's concurrence in
Katz announced a new “twofold requirement” to establish
Fourth Amendment protection: “first that a person have
exhibited an actual (subjective) expectation of privacy and,
second, that the expectation be one that society is prepared

217 (7th Cir. 2018); see also Carpenter, 138 S. Ct. at 2215
n.2 (cautioning against “conflat[ing] the threshold question
whether a ‘search’ has occurred with the separate matter of

to recognize as ‘reasonable.’ ”

whether the search was reasonable”). Pursuant to
United
States v. Knotts, 460 U.S. 276, 103 S.Ct. 1081, 75 L.Ed.2d
55 (1983), we answer the initial question in the negative as
Appellant did not have a reasonable expectation of privacy.
We now flesh out our path to this end.

Amendment analysis.
*310 Smith v. Maryland, 442
U.S. 735, 749, 99 S.Ct. 2577, 61 L.Ed.2d 220 (1979). “Over
time, the Court minimized the subjective prong of Justice
Harlan's test. That left the objective prong—the ‘reasonable
expectation of privacy’ test that the Court still applies today.”

[5]
[6]
[7] The Fourth Amendment protects the “right
of the people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and seizures.”
Amend. IV, U.S. Const. Thus, there must be a “search” or
a “seizure” to trigger the Fourth Amendment's protections.
“The Fourth Amendment does not proscribe all state-initiated
searches and seizures; it merely proscribes those which
are unreasonable.”

Morgan v. United States, 323 F.3d

507. This “

389 U.S. at 361, 88 S.Ct.

Katz test” became the “lodestar” of Fourth

Carpenter, 138 S. Ct. at 2238 (Thomas, J., dissenting)
(citing Orin S. Kerr, Katz Has Only One Step: The Irrelevance
of Subjective Expectations, 82 U. Chi. L. Rev. 113 (2015)).
Yet, “recent Fourth Amendment cases have clarified that
the [ Katz] test ... supplements, rather than displaces,
‘the traditional property-based understanding of the Fourth
Amendment.’ ”
Byrd v. United States, ––– U.S. ––––,
138 S. Ct. 1518, 1526, 200 L.Ed.2d 805 (2018) (internal

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Bailey v. State, 311 So.3d 303 (2020)
45 Fla. L. Weekly D2559, 46 Fla. L. Weekly D312

citation omitted) (quoting

Florida v. Jardines, 569 U.S. 1,

11, 133 S.Ct. 1409, 185 L.Ed.2d 495 (2013)). The
Katz
mechanism has been touted as inconsistent, untenable, and
ever-changing.

Carpenter, 138 S. Ct. at 2244 (Thomas,

J., dissenting). The Supreme Court decisions in

Jones

in 2012 and
Carpenter in 2018 further added to the
murkiness of its application. As noted by Justice Alito in
his concurring opinion in
Jones, “it is almost impossible
to think of late-18th century situations that are analogous”
to 21st-century surveillance techniques.
565 U.S. at 419,
132 S.Ct. 945. Regardless, the judiciary is “obligated, as
subtler and more far-reaching means of invading privacy
have become available to the government, to ensure that
the progress of science does not erode Fourth Amendment
protections.”

Carpenter, 138 S. Ct. at 2208.

Amendment protection.”
United States v. Miller, 425 U.S.
435, 442, 96 S.Ct. 1619, 48 L.Ed.2d 71 (1976) (quoting
Katz, 389 U.S. at 351, 88 S.Ct. 507). Therefore, if an
individual has conveyed information to a third party or to
the public at large, “even if the information is revealed
on the assumption that it will be used only for a limited
purpose,” the government will generally not be required to
obtain a warrant before obtaining the information.
Id.
That established, the mere fact that an individual has on
some level allowed information to be conveyed to a third
person is not an end-all point of consideration preventing
successful application of the

Katz test to a putative privacy

interest. As emphasized in *311
Carpenter, “the nature
of the particular documents sought” must be considered
in determining whether “there is a legitimate expectation
of privacy concerning their contents.”
138 S. Ct. at
2219 (rejecting a “mechanical application” of the third-party

[8]
[9] Fourth Amendment searches now fall into two
doctrine) (quoting Miller, 425 U.S. at 442, 96 S.Ct. 1619).
general hemispheres: 1) trespassory searches in which the
government physically intrudes onto the person or property
As such, courts must examine every
Katz suppression
of an individual, and, 2) intrusion into an area in which a
claim on a case-by-case basis to determine whether a search
person possesses a reasonable expectation of privacy (the
occurred.
Carpenter, 138 S. Ct. at 2213–14.
Katz test).
Jones, 565 U.S. at 405–08, 132 S.Ct. 945.
Here, because there is unquestionably no issue of physical
[15]
[16] The second question—whether the privacy
government trespass, Appellant must find relief via the
interest is one which society is prepared to recognize—
is “informed by historical understandings ‘of what was
Katz test, if he is to be relieved at all. He invokes only
deemed an unreasonable search and seizure when [the
the privacy-based approach as there is no dispute that he was
not the owner of the Honda which was tracked by GPS. To
Fourth Amendment] was adopted.’ ”
Id. at 2214 (quoting
claim
Katz protection under the privacy-based approach,
an individual must have sought to preserve the information
in question as private.
Carpenter, 138 S. Ct. at 2213.
The conduct must exhibit an actual, subjective expectation of
privacy and that subjective expectation is one which society
recognizes as objectively reasonable. See Knotts, 460 U.S.
at 280–81, 103 S.Ct. 1081. Where these two requirements
are met, “official intrusion into that private sphere generally
qualifies as a search and requires a warrant supported by

Carroll v. United States, 267 U.S. 132, 149, 45 S.Ct.
280, 69 L.Ed. 543 (1925)). Under this concept, the Fourth
Amendment's primary goal is the prevention of activity
which would lead to “arbitrary” and “too permeating police
surveillance” and power.
Id. (quoting
Boyd v. United
States, 116 U.S. 616, 630, 6 S.Ct. 524, 29 L.Ed. 746 (1886));
see also

United States v. Di Re, 332 U.S. 581, 595, 68 S.Ct.

222, 92 L.Ed. 210 (1948). 4

Framework and precedent established; we now analyze
whether Appellant's expectation of privacy in his recent
Smith, 442 U.S. at 740, 99 S.Ct. 2577).
movements over public roads in a car that was being
voluntarily tracked by GPS with consent of the owner is
[10]
[11]
[12]
[13]
[14] The first question is
an expectation which society is prepared to recognize as
whether Appellant had a subjective expectation of privacy
reasonable. Appellant argues that
Carpenter and
Jones
regarding the GPS data. Generally, information that a person
compel an affirmative response to the question.
“knowingly exposes to the public ... is not subject of Fourth
probable cause.”

Carpenter, 138 S. Ct. at 2213 (citing

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Bailey v. State, 311 So.3d 303 (2020)
45 Fla. L. Weekly D2559, 46 Fla. L. Weekly D312

In

or call into question conventional
surveillance techniques and tools,
such as security cameras. Nor do
we address other business records
that might incidentally reveal location
information.

Carpenter, the government compelled production of

CSLI from a wireless carrier without a warrant.

138

S. Ct. at 2212. Although
Carpenter acknowledged that
CSLI was constantly being transmitted by individuals to
third parties, thus implicating third party principles,
id. at
2216, the Supreme Court determined that the nature of CSLI
data and its transmission was unique and distinguishable.
Id. at 2217–20. Carpenter declared that cell phones are
ubiquitous in daily life and are ever-present on an individual's
person. Thus, warrantless gathering of CSLI data would mean
that the government essentially had an on-demand “ankle
monitor” attached to the vast majority of people, allowing
an individual's historical movements to be quickly and easily
examined and revealing intimate details of a person's life.

5

Id. at 2218.
In the 5-4 decision, the Carpenter majority concluded that
all-encompassing location information was distinguishable
from the limited information conveyed in the third-party cases
of the past.
Id. The opinion acknowledged the differences
in investigation techniques prior to the digital age *312
because the ability of the police to reconstruct an individual's
past movements was limited “by a dearth of records and the
frailties of recollection,” whereas the government's ability
to review CSLI is limited only by the retention policy of
wireless carriers.
Id. Of importance, the Supreme Court
concluded that the “newfound tracking capacity” effected
every individual in the nation with a cell phone, as opposed
to the tracking only being applicable “to persons who might
happen to come under investigation.”
Id.
Carpenter
held that the government invaded a societally recognizable
expectation of privacy “in the whole of [the defendant's]
physical movements” when it accessed his CSLI data without
a warrant.

Id. at 2219. 6 However, the Supreme Court

explicitly limited its holding in

Carpenter as follows:

[The decision] is a narrow one. We
do not express a view on matters not
before us: real-time CSLI or “tower
dumps” .... We do not disturb the
application of

Smith and

Miller

Id. at 2220.
[17] We next turn to
Jones. In
Jones, the Supreme
Court unanimously determined that police attachment of a
tracker to Jones’ Jeep and use of the device to monitor the
vehicle's movements on public streets for a month, without a
warrant, constituted an unlawful search under the
Fourth
Amendment. 565 U.S. at 400, 132 S.Ct. 945. However, the
Court was split 5-4 as to the fundamental reasons supporting
the ultimate decision. The lower court in
Jones applied
the “mosaic” theory in its analysis that a search occurred.
The mosaic theory applies a cumulative understanding of data
collection by police and analyzes searches as a collective
sequence of steps rather than individual ones. It considers
police action to be viewed over time as a collective “mosaic”
of surveillance and allows the whole picture to qualify
as a protected Fourth Amendment search, even if the
individual steps that contribute to the full picture do not, in
isolation, reach that constitutional threshold. United States
v. Marchetti, 466 F.2d 1309, 1318 (4th Cir. 1972).
Justice Scalia's majority opinion in
Jones did not apply
the mosaic theory. Instead, the majority determined that by
physically installing the GPS device on Jones’ car, the police
had committed a trespass against his “personal effects” and
this trespass, to acquire information, constituted a search per
se.

Id. at 404, 132 S.Ct. 945. Two concurring opinions in
Jones did, however, rely on the mosaic theory in analysis.

565 U.S. at 414–31, 132 S.Ct. 945. “Under this approach,
relatively short-term monitoring of a person's movements
on public streets accords with expectations of privacy that
our society has recognized as reasonable. But the use of
longer-term GPS monitoring in the investigations of most
offenses impinges on expectations of privacy.” Jones, 565
U.S. at 430, 132 S.Ct. 945 (Alito, J., concurring) (internal
citation omitted). This approach to analyzing searches is
rationalized because long-term surveillance uncovers “types

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Bailey v. State, 311 So.3d 303 (2020)
45 Fla. L. Weekly D2559, 46 Fla. L. Weekly D312

of information not revealed by short-term surveillance, such
as what a person does repeatedly, what he does not do, and
what he does ensemble ... Repeated visits to a church, a gym,
a bar, or a bookie tell a story not told by any single visit ....”
United States v. Howard, 426 F. Supp. 3d 1247, 1255 (M.D.
Ala. 2019) (quoting

*313 United States v. Maynard,

615 F.3d 544, 562 (D.C. Cir. 2010)), aff'd sub nom. 7 Justice
Sotomayor, in her concurring opinion in
Jones, agreed
with the expectation of privacy reasoning regarding longterm surveillance, and she also disputed the constitutionality
of warrantless short-term GPS surveillance.

565 U.S. at

415, 132 S.Ct. 945. She distinguished
Knotts, finding
its holding suggested that a different principle might apply
to situations in which every movement was completely
monitored for twenty-four hours.
(Sotomayor, J., concurring).

Id. at 414, 132 S.Ct. 945

8

In
Jones, the Supreme Court declined to examine
whether any exception exists that would render the search
“reasonable,” because the Government had failed to advance
that alternate theory in the lower courts. In leaving resolution
of this issue for a future case, the Supreme Court advised,
“It may be that achieving the same result through electronic
means, is an unconstitutional invasion of privacy, but the
present case does not require us to answer that question.”
Id. at 412, 132 S.Ct. 945. This left the question—what
are the privacy implications of a warrantless use of GPS data
absent a physical intrusion?—unanswered.
We reject Appellant's argument that

Carpenter and

Jones compel suppression here. The holding in
Carpenter is explicitly limited to the warrantless collection
of CSLI and did not address other business records that might
incidentally reveal location information. Appellant argues
that the GPS data at issue here is factually analogous to CSLI.
We, however, agree with the State that the two types of data
are qualitatively different in that the data at issue here is not
the type of arbitrary, all-encompassing surveillance at issue in

perpetual tracking which penetrates private spheres—and of
the fact that the overwhelming majority of individuals more
or less must own a cell phone.
138 S. Ct. at 2218. On
these key points, the GPS data at issue is not comparable.
The privacy-penetrating capacity of cell phones has been
distinguished from cars, which have “little capacity for
escaping public scrutiny” as they largely only travel through
public thoroughfares.
Id. (quoting
Cardwell v. Lewis,
417 U.S. 583, 590, 94 S.Ct. 2464, 41 L.Ed.2d 325 (1974)
(noting that individuals regularly leave their cars whereas cell
phones are compulsively carried at all times)). Because cars
do not bear the same attachment to their owners and cannot
penetrate private spaces to the same degree, government
acquisition of a vehicle's GPS data does not give rise to
the same risk of all-encompassing surveillance as CSLI. An
individual often moves about—both publicly and privately—
away from their vehicle. Additionally, as an owner's vehicle is
frequently in operation and driven by others, GPS tracking of
cars does not provide police the level of personal surveillance
contemplated with CSLI. Because cell phones are treated as
“almost a ‘feature of human anatomy,’ ” tracking of a cell
phone is tracking of the owner.
Id. (quoting
Riley v.
California, 573 U.S. 373, 385, 134 S.Ct. 2473, 189 L.Ed.2d
430 (2014)).
An individual cannot claim the same figurative attachment
to a vehicle, particularly one that they do not actually own.
Here, the GPS data tracked the Honda, while other evidence
was required to put Appellant in it. Further, the collection
of GPS data in this context encompasses only those car
owners who have affirmatively consented to collection of
tracking information. Adding further consideration of thirdparty principles, the consent to tracking on the part of the
car owner further dilutes the argument that the precedent of
Carpenter controls. Although the Court in
Carpenter
forbid the government from warrantlessly accessing seven
days of historical CSLI from a target's wireless carriers, it
refused to address whether one's “reasonable expectation of
privacy in the whole of his physical movements” extends to
shorter periods of time or to other location tracking devices.
138 S. Ct. at 2217 n.3, 2219.

Carpenter.
Likewise,
Jones does not mandate a conclusion in this
[18] [19] []20[] [21] As explained in
Carpenter, the case that acquisition of the GPS monitoring constitutes a
search. The Supreme Court expressly limited the holding
harm inherent in a government's warrantless gathering of
CSLI is primarily borne of the virtual attachment of the
of
Jones which found only that the installation of the
device to its owner—allowing for all-encompassing, *314
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Bailey v. State, 311 So.3d 303 (2020)
45 Fla. L. Weekly D2559, 46 Fla. L. Weekly D312

GPS device on the defendant's car constituted a trespass, and
therefore, was a search. The case did not present the issue of
“reasonableness” of such a search. Rather, the conclusion in
Jones is grounded in the fundamentals of the relevant facts
and applicable law.
Instead, we find
Knotts controlling. In
Knotts, the
Supreme Court permitted the use of a beeper to follow
a vehicle because “[a] person traveling in an automobile
on public thoroughfares has no reasonable expectation of
privacy in his movements from one place to another.”
460
U.S. at 281, 103 S.Ct. 1081. We acknowledge the Court's
statement that the “limited use which the government made
of the signals from this particular beeper” during a discrete
“automotive journey” and reserved the question of whether
“different constitutional principles may be applicable” if
“twenty-four hour surveillance of any citizen of this country

Nothing forced Appellant to use the Honda owned by his
girlfriend, and any number of other means of travel were
available which were not being tracked. Use of a car owned
by another to traverse public streets renders Appellant's
purported expectation of privacy unreasonable.
[24] [25] We acknowledge that
Carpenter's seemingly
sweeping language, its discussion of the fundamental shifts of
the technology revolution of the 21st century and discussion
of an expansion of individual constitutional rights in this type
of data. This may indicate the Supreme Court's willingness
to revisit
Knotts. See
Carpenter, 138 S. Ct. at 2214.
However, the doctrine of stare decisis prevails. The Supreme
Court has not explicitly overruled
Knotts and continues
to apply its precedent in recent Fourth Amendment analysis.
Id. at 2218–21. Regarding Supreme Court precedent:

[were] possible.”
Id. at 283–85, 103 S.Ct. 1081 (internal
quotation marks omitted).

Its “decisions remain binding precedent until [it] see[s]
fit to reconsider them, regardless of whether subsequent
cases have raised doubts about their continuing vitality.”

[22] The fact that GPS data is historical in nature does not
alone provide Appellant a reasonable expectation of privacy

Hohn v. United States, 524 U.S. 236, 252–53, 118 S.
Ct. 1969, 141 L.Ed. 2d 242 (1998). If a Supreme Court
precedent “has direct application in a case, yet appears to
rest on reasons rejected in some other line of decisions,”
the lower court “should follow the case which directly
controls, leaving to th[e Supreme] Court the prerogative

regarding the information. According to Knotts, Appellant
had no reasonable expectation *315 of privacy regarding
his travels over public thoroughfares. Although technically
historical, GPS records of the Honda's location during the
commission of the offense remain simply records of his
public travels. The fact remains that Appellant chose to
operate a car on public roads—a car owned by another who
consented to GPS tracking. The police played no role in the
recording of the information and simply availed themselves
of the advantages afforded by the electronic recording. 9
Under these circumstances, any expectation of privacy on
Appellant's part was not objectively reasonable.
[23] Likewise, Appellant's use of the Honda to engage in
public travel did not demonstrate a subjective expectation of
privacy. As previously stated, the third-party doctrine does
not attach automatically to information being transmitted to a
third party. Instead, like other aspects of the Katz analysis,
the nature of any transmission is examined to determine
whether a privacy interest will be upset, if information is
revealed. See
Carpenter, 138 S. Ct. at 2219 (rejecting
a “mechanical application” of the third-party doctrine). A
“lack of voluntariness” cannot be claimed regarding the
transmission of GPS information to the financing company.

of overruling its own decisions.”
*316 Rodriguez de
Quijas v. Shearson/Am. Express, Inc., 490 U.S. 477, 484,
109 S. Ct. 1917, 104 L.Ed. 2d 526 (1989).
Howard, 426 F. Supp. 3d at 1258. Because
factually analogous than
holding.

Knotts is more

Carpenter, it controls this Court's

Here, Appellant has failed to demonstrate a
Katz interest
which was encroached upon by the police, and thusly, no
search occurred. In the absence of a search, no grounds
exist to suppress the evidence. The trial court's denial of the
suppression motion is, therefore, affirmed.

The Competency Issue
[26] Appellant also argues that, because the trial court
ordered a competency evaluation, it was required to conduct
a formal competency hearing before proceeding to trial. The

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Bailey v. State, 311 So.3d 303 (2020)
45 Fla. L. Weekly D2559, 46 Fla. L. Weekly D312

trial court ordered a competency evaluation based on trial
counsel's suggestion of incompetence. The record then falls
silent regarding the issue. No indication is provided as to
whether an expert's report was filed, that any hearing was
conducted, or that Appellant was found competent. This
constitutes reversible error. See Berry v. State, 237 So. 3d
1165 (Fla. 1st DCA 2018).
[27] However, a new trial is not necessarily required. This
Court has previously held that “[t]he trial court may make a
retroactive determination of competency with no change in
Appellant's judgment or sentence, if the evidence that existed
prior to the hearing on Appellant's charges supports a finding
that he was competent at that time.” Cotton v. State, 177
So. 3d 666, 668–69 (Fla. 1st DCA 2015). “If the trial court
cannot make a retroactive determination, it must properly
adjudicate Appellant's present competency and, if the court
finds Appellant competent to proceed,” conduct a new trial.
Id. at 669.
For the foregoing reasons, the judgment and sentence are
AFFIRMED, in part, REVERSED, in part, and REMANDED
for further proceedings consistent with this opinion.

Roberts, J., concurs; Osterhaus, J., concurs in result with
opinion.
Osterhaus, J., concurring in result.
I agree that the Fourth Amendment issue should be affirmed.
But given the gauntlet of Carpenter-related considerations
at play, I would not decide this case by holding that
individuals lack a reasonable expectation of privacy in the
records of their movements recorded by their vehicle's GPS
system. Instead, I would affirm based on the good-faith
exception to the exclusionary rule.
A couple years back, in
Carpenter v. United States, –––
U.S. ––––, 138 S.Ct. 2206, 2217, 201 L.Ed.2d 507 (2018), the
United States Supreme Court restricted law enforcement from
obtaining a suspect's cell-site location information (CSLI)
from a cell phone company without a warrant because “an
individual maintains a legitimate expectation of privacy in the
record of his physical movements as captured through CSLI.”
In reaching this decision, the Carpenter opinion repeatedly
addressed the circumstances involved in its vehicle-GPS case
from 2012,

S.Ct. 945, in which the FBI collected GPS data detailing
the movements of a suspect's car for almost a month.
Carpenter, 138 S.Ct. at 2215–18. The

See

opinion addressed the vehicle-GPS issue from
follows:

Carpenter
Jones as

[F]ive Justices agreed that related privacy concerns would
be raised by ... “surreptitiously activating a stolen vehicle
detection system” in Jones's car to track Jones himself,
or conducting GPS tracking of his cell phone. Since GPS
monitoring of a vehicle tracks “every movement” a person
makes in that vehicle, the concurring Justices concluded
*317 that “longer term GPS monitoring in investigations
of most offenses impinges on expectations of privacy”—
regardless whether those movements were disclosed to the
public at large.
....
A majority of this Court has already recognized that
individuals have a reasonable expectation of privacy in
the whole of their physical movements. ... [S]ociety's
expectation has been that law enforcement agents and
others would not—and indeed, in the main, simply
could not—secretly monitor and catalogue every single
movement of an individual's car for a very long
period. Allowing government access to cell-site records
contravenes that expectation [of privacy]. Although such
records are generated for commercial purposes, that
distinction does not negate Carpenter's anticipation of
privacy in his physical location. ... As with GPS
information, the time-stamped [cell-phone] data provides
an intimate window into a person's life, revealing ... his
particular movements [and] associations.
....
In
Knotts, the Court relied on
Smith to hold that
an individual has no reasonable expectation of privacy in
public movements that he “voluntarily conveyed to anyone
who wanted to look.” But when confronted with more
pervasive tracking, five Justices agreed that longer term
GPS monitoring of even a vehicle traveling on public
streets constitutes a search.
Id. at 2215, 2217, 2219–20 (citations omitted).

United States v. Jones, 565 U.S. 400, 132

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Bailey v. State, 311 So.3d 303 (2020)
45 Fla. L. Weekly D2559, 46 Fla. L. Weekly D312

In view of

Carpenter's elaboration on

Jones, its

retreat from applying Knotts and the third-party disclosure
doctrine in continuous digital tracking-oriented cases, See
id. at 2215–20, I cannot see affirming this case under
Knotts, or with a holding that drivers lack a reasonable
expectation of privacy in the GPS records of their vehicle's
movements.
Rather, I would affirm this case based on the good-faith
exception to the exclusionary rule. See
Davis v. United
States, 564 U.S. 229, 236, 131 S.Ct. 2419, 180 L.Ed.2d 285
(2011) (discussing the good-faith exception). That is, even
if the evidence involved a protected category of information
obtained in violation of the Fourth Amendment, it is not
subject to exclusion because the officer acted reasonably
in accordance with then-good law. The exclusionary rule is
a “prudential’ doctrine created by [the Supreme] Court to
‘compel respect for the constitutional guaranty’ ” and “deter
future Fourth Amendment violations.”
Id. at 236–37, 131
S.Ct. 2419. Suppression is not an automatic consequence of
a Fourth Amendment violation, but instead a “last resort,”
justified only where “the deterrence benefits of suppression ...
outweigh [the] heavy costs” of ignoring reliable, trustworthy
evidence bearing on guilt or innocence. See
id. at 237,
131 S.Ct. 2419. It follows that when officers act with “an
objectively ‘reasonable good-faith belief’ that their conduct
is lawful,” the exclusionary rule doesn't apply because there is
little or no deterrence-oriented benefit to be gained. See
at 238, 131 S.Ct. 2419.

id.

The good-faith exception applies in this case because, at the
time the officer obtained the vehicle GPS data,
Carpenter
hadn't been decided. Under the applicable law in 2016, it
was not unlawful for an officer to investigate a crime by
seeking pervasive location data from a third-party company
who had collected the data for its own business purposes

with consent. Instead, the United States Supreme Court had
held that individuals lack protectable Fourth Amendment
interests in records voluntarily disclosed to and possessed,
owned, and controlled by a third party. See *318
United
States v. Miller, 425 U.S. 435, 442–44, 96 S.Ct. 1619, 48
L.Ed.2d 71 (1976); Smith v. Maryland, 442 U.S. 735, 743–
44, 99 S.Ct. 2577, 61 L.Ed.2d 220 (1979); cf. Yarbrough v.
State, 473 So. 2d 766, 767 (Fla. 1st DCA 1985) (finding no
legitimate expectation of privacy as to numbers dialed into a
commercial telephone system). Thus, here, when the officer
obtained the GPS data from the car financing company in
2016, he had no good reason to believe that a warrant was
needed. see also

United States v. Davis, 785 F.3d 498, 513–

14 (11th Cir. 2015) (en banc) (noting that pre-

Carpenter,

Jones held that a GPS tracker placed on a private vehicle
was a search because the tracker was attached on private
property, not necessarily because real-time tracking intrudes
on a reasonable expectation of privacy). The officer here acted
reasonably in accordance with then-good law.
One additional reason for applying the good-faith exception
in this case is that the car's owner (Appellant's girlfriend)
reported it stolen to police, and missing to her car-financing
company, during the same time that Appellant was using the
car in committing the murder. Under these circumstances, it
is hardly unreasonable that law enforcement, with the owner's
apparent consent, investigated the vehicle's location for the
narrow slice of time that the car went missing (even if the
owner's testimony raised questions later about whether the
car had really been stolen). For this reason, too, given the
objectively reasonable response of law enforcement to her
report, this case is ill-suited to applying the exclusionary rule
as a Fourth Amendment-related deterrent.
All Citations
311 So.3d 303, 45 Fla. L. Weekly D2559, 46 Fla. L. Weekly
D312

Footnotes
1

The girlfriend's signed contract with the financing company acknowledged that a GPS tracking device had
been installed on the vehicle and provided that her signing of the agreement would constitute a waiver of
any “right to privacy in the location of the vehicle.” Although the owner of the finance company testified at the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Bailey v. State, 311 So.3d 303 (2020)
45 Fla. L. Weekly D2559, 46 Fla. L. Weekly D312

2

3

4

suppression hearing that the location information tracked by the device was primarily used to locate a vehicle
in the event of theft or default, he also testified that historical data was sometimes accessed to determine
past locations in the event the tracker was disabled.
The parties also raised the issue of standing in their briefs. Although standing arguments are understandable
given the longstanding prevalence of the argument in Fourth Amendment jurisprudence, the arguments are
misplaced in the context of non-trespassory police activity. Lack of standing in the context of non-trespassory
police activity contends that one does not have standing to object to police conduct which only violates
another person's constitutional rights against unreasonable searches. Although the reasoning is logical, its
application to privacy interests rather than property interests is mislaid. The issue of a defendant's ability to
contest to police conduct which he or she believes violates a
Katz privacy interest is not in question here.
The parties dispute the factual issue of Appellant's authorization to drive the Honda, with Appellant arguing
that he had general permission from his girlfriend, and the State contending that she had withdrawn
permission, making the car stolen while he used it during the commission of the crime. It would be difficult to
argue that one who has stolen a car has a reasonable expectation of privacy in the stolen property's location,
or in his or her movements while operating a stolen car. That said, no specific finding was made by the trial
court on this point, and the record is inconclusive. As the resolution of this dispute was not relevant to the
trial court's ruling, it is likewise not reviewed here.
In

Carpenter, Justice Gorsuch noted in his dissent:
The [Fourth] Amendment's protections do not depend on the breach of some abstract “expectation of
privacy” whose contours are left to the judicial imagination. Much more concretely, it protects your “person,”
and your “houses, papers, and effects.” Nor does your right to bring a Fourth Amendment claim depend on
whether a judge happens to agree that your subjective expectation to privacy is a “reasonable” one. Under
its plain terms, the Amendment grants you the right to invoke its guarantees whenever one of your protected
things (your person, your house, your papers, or your effects) is unreasonably searched or seized. Period.
138 S. Ct. at 2264.

5

The majority reasoned in
Carpenter that, because a phone “faithfully follows its owner beyond public
thoroughfares and into private” locations, government examination of CSLI reveals potentially sensitive,
private information about an individual, such as their visit to a certain doctor's office or political organizations.
138 S. Ct. at 2218.

6
7

The decision in
Carpenter does not address the “mosaic” theory.
This contemplates whether the constitutionality of a search may now be based on duration of data acquisition.
See
United States v. Skinner, 690 F.3d 772, 780–781 (6th Cir. 2012) (holding that three days of realtime, non-trespassory cell phone tracking did not “present the concern raised by Justice Alito's concurrence
in
Jones”), superseded by sentencing guidelines on other grounds, U.S. Sentencing Guidelines Manual
App. C, amend. 794, at 116–18 (Nov. 2015); United States v. Diggs, 385 F. Supp. 3d 648, 652, 654–55
(N.D. Ill. 2019) (citing
Carpenter and
Jones concurrences to determine that warrantless acquisition of
one month of historical GPS vehicle data violated the target's reasonable expectation of privacy); State v.
Zahn, 812 N.W. 2d 490, 497–98 (S.D. 2012) (applying the mosaic theory to determine that twenty-six days
of warrantless GPS vehicle tracking violated reasonable expectation of privacy).

8

The Florida Supreme Court agreed with the court in
United States v. Wilford, 961 F. Supp. 2d 740, 771
(D. Md. 2013), that the “mosaic” theory has presented “problems in practice ... where traditional surveillance
becomes a search only after some specified period of time.”
Tracey v. State, 152 So. 3d 504, 520 (Fla.
2014). Justice Labarga explained as follows:
... basing the determination as to whether warrantless real time cell site location tracking violates the
Fourth Amendment on the length of the time the cell phone is monitored is not a workable analysis. It

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

Bailey v. State, 311 So.3d 303 (2020)
45 Fla. L. Weekly D2559, 46 Fla. L. Weekly D312

requires case-by-case, after-the-fact, ad hoc determinations whether the length of the monitoring crossed
the threshold of the Fourth Amendment in each case challenged. The Supreme Court has warned against
such an ad hoc analysis on a case-by-case basis, stating, “Nor would a case-by-case approach provide a
workable accommodation between the needs of law enforcement and the interests protected by the Fourth
Amendment.”
9

Oliver v. United States, 466 U.S. 170, 181, 104 S. Ct. 1735, 80 L.Ed. 2d 214 (1984).

Tracey, 152 So. 3d at 520.
Although electronic recording of location data would have been out of the question for founding era police,
the technology used is not necessarily the relevant consideration. The question is whether the activity itself
would be incomprehensible to the founding era public as it would lead to an arbitrary, all-encompassing
police state. The “activity” here is police acquisition of information regarding an object's public travels which
the object's owner consented to be recorded for access after the fact. One can conceive, for instance, of a
founding era shipping company consenting to a valuable shipment being accompanied by a representative of
the shipper to record where and how the shipment was transported; it is doubtful that the driver of the horsedrawn wagon hauling the goods would be able to claim a reasonable expectation of privacy in his location
were constables to later ask the company representative about any stops the driver had made. This activity
is substantially similar, just in a far more efficient fashion. That said, the activity constitutes unremarkable
police conduct which is enhanced with a technological advantage and which does not otherwise present a
risk of arbitrary surveillance.

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

APPENDIX
B

DISTRICT COURT OF APPEAL, FIRST DISTRICT
2000 Drayton Drive
Tallahassee, Florida 32399-0950
Telephone No. (850)488-6151
February 08, 2021
CASE NO.: 1D18-4514
L.T. No.: 16-2017-CF-005817-AXXX
Brandon Joshua Bailey
Appellant / Petitioner(s),

v.

State of Florida
Appellee / Respondent(s)

BY ORDER OF THE COURT:
Appellant’s motion filed November 25, 2020, is granted in part, and denied in part.
Appellant’s request for the redacting of a non-party’s name from the opinion is granted.
However, Appellant’s requests for rehearing and certification of a question of great public
importance are denied. A corrected opinion will be issued simultaneously with this order.

I HEREBY CERTIFY that the foregoing is (a true copy of) the original court order.
Served:
Hon. Ashley Moody, AG
Hon. Jessica J. Yeary, PD
Victor D. Holder, APD
ks

Benjamin Louis Hoffman, AAG
M. J. Lord, APD
Hon. Charles W. Arnold, Judge

APPENDIX
C

Filing # 122875963 E-Filed 03/10/2021 04:45:31 PM

IN THE DISTRICT COURT OF APPEAL
FIRST DISTRICT OF FLORIDA
BRANDON JOSHUA BAILEY,

RECEIVED, 03/10/2021 04:46:27 PM, Clerk, First District Court of Appeal

Appellant/Petitioner,
CASE NO.: 1D18-4514
LT NO: 2016CF5817 (DUVAL COUNTY)
v.
STATE OF FLORIDA,
Appellee/Respondent.
/
NOTICE TO INVOKE DISCRETIONARY JURISDICTION OF FLORIDA
SUPREME COURT
Appellant/Petitioner, through the undersigned counsel and pursuant to
Florida Rule of Appellate Procedure 9.120(a)-(c), hereby invokes the discretionary
jurisdiction of the Florida Supreme Court to review the February 8, 2021, decision
of this Court, for which Appellant/Petitioner’s motion for rehearing and request for
certification of a question of great public importance was granted in part and
denied in part, and a corrected opinion was issued by the Court on February 8,
2021. Rule 9.030(a)(2)(A)(ii), Florida Rules of Appellate Procedure, allows the
Florida Supreme Court to exercise its discretionary jurisdiction where the decision
of a district court of appeal expressly construes a provision of the federal
constitution. The First District’s decision in the instant case expressly construes a
provision of the Fourth Amendment of the United States Constitution.

CERTIFICATE OF SERVICE
I CERTIFY that a copy of the foregoing has been furnished by electronic
mail

to

Trisha

Meggs

Pate,

Office

of

the

Attorney

General,

at

crimapptlh@myfloridalegal.com, and Benjamin Hoffman, Office of the Attorney
General, at benjamin.hoffman@myfloridalegal.com this 10th day of March, 2021.
Respectfully submitted,
/s/ Victor Holder
VICTOR HOLDER
Assistant Public Defender
Florida Bar No. 71985
Leon County Courthouse
301 South Monroe Street, Suite 401
Tallahassee, FL 32301
(850) 606-8500
victor.holder@flpd2.com
ATTORNEY FOR
APPELLANT/PETITIONER

APPENDIX
D

Filing # 128666102 E-Filed 06/14/2021 10:47:38 AM

E-Copy Received

6/14/21 10:47 am

Supreme Court of Florida
MONDAY, JUNE 14, 2021
CASE NO.: SC21-382
Lower Tribunal No(s).:
1D18-4514; 162016CF005817AXXXMA
BRANDON JOSHUA BAILEY
Petitioner(s)

vs.

STATE OF FLORIDA
Respondent(s)

This cause having heretofore been submitted to the Court on
jurisdictional briefs and portions of the record deemed necessary to
reflect jurisdiction under Article V, Section 3(b), Florida
Constitution, and the Court having determined that it should
decline to accept jurisdiction, it is ordered that the petition for
review is denied.
No motion for rehearing will be entertained by the Court. See
Fla. R. App. P. 9.330(d)(2).
POLSTON, LABARGA, LAWSON, MUÑIZ, and COURIEL, JJ.,
concur.
A True Copy
Test:

CASE NO.: SC21-382
Page Two

lc
Served:
VICTOR HOLDER
EVAN EZRAY
BENJAMIN L. HOFFMAN
JEFFREY PAUL DESOUSA
AMIT AGARWAL
TRISHA MEGGS PATE
HON. CHARLES WARNER ARNOLD JR., JUDGE
HON. KRISTINA SAMUELS, CLERK
HON. JODY PHILLIPS, CLERK

APPENDIX
E

APPENDIX
F

